HHS/OIG-Audit--"Review of the Internal Control Structure Over the Accounts Payable Balance for the Hospital Insurance Trust Fund at September 30, 1992, (A-05-92-00106)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Internal Control Structure Over the Accounts Payable Balance
for the Hospital Insurance Trust Fund at September 30, 1992," (A-05-92-00106)
June 30, 1994
Complete Text of Report is available in PDF format
(2.59 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our review of the internal
control structure over the accounts payable balance for the hospital insurance
trust fund at September 30, 1992. We identified problems with the design and
implementation of the Health Care Financing Administration's (HCFA) internal
control structure and accounting policies used to report hospital insurance
accounts payable balances. The HCFA's financial reporting instructions to the
fiscal intermediaries were too general causing accounts payable amounts to be
calculated and reported inconsistently. Also, peer review organization adjustments
were not included in the accounts payable balance, and certain benefit payment
checks and contracted services were improperly included in the accounts payable
balance. Recommendations provide for steps HCFA can take to help ensure the
accuracy and reliability of account payable balances.